No. 20IN THE

Supreme Court of the United States
DEMETRIUS WILLIAM EDWARDS AND
BRYANT LAMONT ROYSTER,
Petitioners,
v.
SHERRY L. BURT, WARDEN, AND
KEVIN LINDSEY, WARDEN,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Alan E. Schoenfeld, a member of
the bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 8,704 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on February 26, 2021.

ALAN E. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 937-7294
alan.schoenfeld@wilmerhale.com

